No. 19-389

 

IN THE

Supreme Court of the United States

JAY ANTHONY DOBYNS,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Federal Circuit

BRIEF OF NATIONAL ASSOC. OF POLICE ORGS.,
ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES
ASSOC. OF RETIREES, INT’L ASSOC. OF UNDERCOVER
OFFICERS, RICHARD W. HARPER, ROBERT R.
ALMONTE, SAFE CALL NOW, SURVIVE FIRST, INC.,
AND THE ARIZONA ASSOCIATION FOR JUSTICE, AS
AMICI CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,892 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 24, 2019.

 

Colin Casey Hog;
Wilson-Epes Printing Co., Inc.
